CERTIFICATE OF COMPLIANCE
No.

IN THE SUPREME COURT OF THE UNITED STATES

YOUNG COUNTY, TEXAS; YOUNG COUNTY SHERIFF'S
DEPARTMENT, PETITIONERS
V.
NICHOLE SANCHEZ; CASY SIMPSON; EDWARD LAROY
SIMPSON, II, INDIVIDUALLY AND AS THE
REPRESENTATIVE OF THE ESTATE OF DIANA LYNN
SIMPSON, RESPONDENTS

CERTIFICATE OF COMPLIANCE WITH WORDCOUNT LIMITATIONS
As required by Supreme Court Rule 33.1(h), I
certify that Petitioners' petition for a writ of certiorari
contains 6,791 words, excluding the parts of the
petition that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 2

S. Cass Weiland

STATE OF TEXAS
COUNTY OF DALLAS

ยง

Subscribed and sworn to before me on this 2nd
day of October 2020.
MARTHA C, ROSE
My Notary ID # 131690
Expires December 8, 2020

[SEAL]

artha C. Rose
tary Public, State of Texas
My Commission Expires
December 8, 2020

